IN THE SUPREME COURT OF THE UNITED STATES
) U.S. Supreme Court Cas^^x:^
ANTHONY A. PATEL, an
individual,
Petitioner/Plaintiff and Appellant, )
office dp
) Supreme Court of CaliforniaT i^CLERK
) Case Number: S265082
vs.
)

THE SUPERIOR COURT OF THE )
) California Court of Appeal Case
STATE OF CALIFORNIA,
COUNTY OF LOS ANGELES,
) Number: B307843
)
Defendant and Respondent.
)

) Superior Court of California (County
) of Los Angeles) Case: BD585163

Real Party in Interest: SONYA
BHATIA, an individual.

Petition Seeking Relief from Denial of Review by
The California Supreme Court
(dated: December 23, 2020)

PETITION FOR WRIT OF CERTIORARI AND MANDATE FOR
APPROVAL OF THE EXECUTIVE BRANCH (ARTICLE TWO)
OF U.S. GOVERNMENT PRIOR TO ANY FURTHER RULINGS
BY COURTS IN ANY FURTHER CASES OR CONTROVERSIES

Anthony A. Patel
553 N. Pacific Coast Hwy.,
Suite B-522
Redondo Beach, CA 90277
Phone: (424) 350-0123
Fax: (310) 943-3829
Email:tony@tonypatel.com
Appellant (Pro Se)
1
Petition for Writ Certiorari and Mandate for Executive Authority

i

QUESTIONS PRESENTED FOR REVIEW
1.

Can the Executive Branch of U.S. Government

impose martial law upon all courts in America so that judges
follow the law?
2.

If federal judges do not follow the law, does the

Executive have inherent authority to supersede courts?
3.

Do judges have the right to sanction litigants for

complying with The Federalist Papers ?
4.

What remedies do the President and Vice President

have against courts in which judges in America are vexatious to
the interests of the American people?
5.

What legal power exists under Article 2 of the

Constitution to compel all nine justices of this Supreme Court to
resign so that the President can appoint more capable judges?
6.

Does the President have the inherent right to recall

federal judges for not doing their jobs properly under the law?
Clr^r-i o+.i+.n f.i r>T-i.al1 nw./frorm

sni i lives .wh O

are still alive (Presidents Bush, Clinton, Obama and Trump) to
demand their appointed judges resign for violating their oaths?
8.

What right does a judge in America have to sanction

a litigant for following the law and trying to serve his/her nation?
9.

Does the Constitution allow children of the next

generation to succeed despite the errors of their judicial system?
10.

How many petitions from Appellant does this

Supreme Court have to deny before President Biden and Vice
President Harris have good cause under their inherent Executive
Authority to replace every judicial officer in the United States?
2

Petition for Writ Certiorari and Mandate for Executive Authority

LIST OF PARTIES
ANTHONY A. PATEL, an individual, Petitioner/Plaintiff and
Appellant,

THE SUPERIOR COURT OF THE STATE OF CALIFORNIA,
COUNTY OF LOS ANGELES,
Defendant and Respondent.
Real Party in Interest: SONYA BHATIA, an individual.

3

Petition for Writ Certiorari and Mandate for Executive Authority

CORPORATE DISCLOSURE STATEMENT
I, Anthony A. Patel, do hereby certify that there are no
publicly-held companies or corporations as interested entities or
persons to list in this Statement.

DATED: May 24, 2021
Anthony A. Patel
Appellant
Pro Se

4

Petition for Writ Certiorari and Mandate for Executive Authority

LIST OF PROCEEDINGS

Anthony A. Patel vs. Superior Court of Los Angeles County
(Real Party in Interest: Sonya Bhatia), Supreme Court of
California, Docket Case Number: S265082. Date of Entry of
Order Denying Petition for Review: December 23, 2020.

Anthony A. Patel vs. Superior Court of Los Angeles County
(Real Party in Interest: Sonya Bhatia), California Court of
Appeal, Docket Case Number: B307843. Date of Appellate Order:
October 7, 2020.

Anthony A. Patel vs. Sonya Bhatia Patel, Dissolution of
Marriage Family Law Proceeding, Superior Court of California
(County of Los Angeles) Docket Case Number: BD585163. Date of
Final Judgment: July 30, 2020.

5

Petition for Writ Certiorari and Mandate for Executive Authority

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES

3

CORPORATE DISCLOSURE STATEMENT

4

LIST OF PROCEEDINGS

5

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

7

JURISDICTIONAL STATEMENT

8

LEGAL ISSUES IN THIS CASE

9

STATEMENT OF FACTS

10

STATEMENT OF CASE

11

REASONS IN SUPPORT OF WRIT PER ARTICLE TWO

12

ARGUMENT PURSUANT TO EXECUTIVES 1 TO 46

13

THE CONCLUSION PER EXECUTIVE ORDER 14023

14

APPENDIX:
Order of California Supreme Court (December 23, 2020)
-QvrW r>tlf!flli forma Court of Anneal (October 7, 2020)

6
Petition for Writ Certiorari and Mandate for Executive Authority

TABLE OF AUTHORITIES
Page
Case Law
Obergefell v. Hodges, 576 U.S. 644 (2015)

10

Court Rules
Rules of The United States Supreme Court
Rule 10

13

Rule 12

13

Constitutions and Treatises
passim

United States Constitution
Article II

passim

Article III

passim

First Amendment

passim

Fifth Amendment

passim

Fourteenth Amendment

passim

Governing International Legal Authority
Universal Declaration of Human Rights

9

United Nations Charter

9

7
Petition for Writ Certiorari and Mandate for Executive Authority

JURISDICTIONAL STATEMENT
The jurisdiction of the U.S. Supreme Court is proper in this
case as the petition for review in this proceeding was denied by
the California Supreme Court on December 23, 2020. Under this
Court’s current extended deadlines during the Covid-19
pandemic, the deadline to file this instant petition for a writ of
certiorari is 150 days (the 150th day was a Saturday, May 22,
2021, so the Petition is timely submitted on the next court day,
i.e. Monday, May 24, 2021).
This petition flows directly from denial of review by a state
court of last resort on December 23, 2020. Thus, this Court’s final
jurisdiction is customary and proper in such cases which arise
from state courts.

8
Petition for Writ Certiorari and Mandate for Executive Authority

LEGAL ISSUES IN THIS CASE
The legal issue in this case is rather straightforward: in a
settled dissolution matter which resolved on the eve of trial after
7 years of litigation, a judge does not possess any legal authority
after the fact to sanction or deem a litigant vexatious for bringing
about the very settlement which is the objective of family law
litigation. In this case, California judge Bruce Iwasaki was rather
upset at Appellant’s pledge of allegiance with Article II of the
Constitution rather than paying homage to incapable judges like
Mr. Iwasaki. Appellant chooses to instead rely on the judgment of
almost 160 million American voters in 2020 and rather prefers
the wise judgement of our original constitutional framers and the
founders of American society on July 4, 1776.
These concepts trouble judges nowadays. So, they deemed
Appellant vexatious and sanction him. Notably, Appellant settled
his dissolution case with the other party on his own - not with a
i11d gft’s help. Yet, his constitutional rights have been squelched
for merely doing his job. First and Fifth Amendments to the U.S.
Constitution. Due process does not allow a judge to brand a
litigant vexatious or sanction Appellant after the case is already
settled because the judge feels left out of the process. Fourteenth
Amendment to the U.S. Constitution.
Courts in America fail to comply with the international
legal system affording basic rights to all human beings. Universal
Declaration of Human Rights (UDHR). Thus, they violate
Appellant’s rights in contravention of international laws which
apply in the United States since 1945. United Nations Charter.
9
Petition for Writ Certiorari and Mandate for Executive Authority

STATEMENT OF FACTS
Appellant and the real party Sonya Bhatia (“Bhatia”) were
in a family law proceeding which Appellant commenced in July
2013. After seven years of constant litigation, a trial was set at
the end of July 2020. On the eve of trial, the parties resolved all
of the issues and the family law trial court entered a final
judgment ending the matter.
A few days later, Judge Iwasaki, decided that he would
start his own version of the law, and decided after the case was
already over that he would now sanction Appellant and deem
Appellant a vexatious litigant. Judge Iwasaki s judgment is
seriously flawed and indicates that judges in this country require
approval from the Executive, Article II of the Constitution, before
making any further rulings in cases.
Judges cannot interpose their own rules after cases are
over. To do so violates the very meaning after cases are settled
under due process considerations. Moreover, when Appellant
sought permission to review his case in the appellate court, the
California Court of Appeal did not allow his writ to be reviewed.
In fact, Appellant was denied permission to even file his writ,
thereby eliminating his First Amendment right to petition and
seek redress. Obergefell v. Hodges, 576 U.S. 644 (2015).
The reality is very difficult for judges to accept even though
it should be easy. President Trump threatened China and they
hit America back so hard that most Americans cannot even
accept that they have been under the equivalent of global nuclear
attack every day since the Fall of 2019 to the spring of 2021.
10
Petition for Writ Certiorari and Mandate for Executive Authority

STATEMENT OF CASE
Judges in America do not think that the laws apply to them
nor do they believe that they are under the law. For this reason,
the Executive Power of the United States is required to bring the
entire Judicial Branch in compliance with the Law by July 4,
2021. The inherent power of the Executive shall govern to
preserve, protect and defend this nation, from all enemies,
foreign and domestic, which cause harm to the American people.
Article 2, Constitution.
The United States is under serious attack for the past 20
years starting on September 11, 2001. But, judges in U.S. courts
are instead making a delusional mockery of our history of the
past 245 years by their behavior at the present time. Unlike
judges in America, China clearly remembers President George
H.W. Bush’s speech on September 11, 1990 about a “new world
order” and the judgment of the Chinese was to thwart this order
by launching the equivalent of Pearl Harbor 1941 and 9/11/01
warfare every day, all-day, upon all Americans for about the past
two years. By the time that a judge catches up to that world
reality of the fact that they have been under attack in 2019 and
2020 by China, the entire past 245 years will become obsolete
since July 4, 1776. President Biden is now the Commander-inChief. His lawful orders will be followed by the nine individual
justices in this Supreme Court and their staff at all times. We
have already lost a lot of ground to the rest of the world with
judges living in their delusional, fairy-tale, mickey-mouse
Disneyland view of reality. Judges have to eventually grow up.
11
Petition for Writ Certiorari and Mandate for Executive Authority

REASONS IN SUPPORT OF WRIT PER ARTICLE TWO
The reasons for the writ and the mandate of Executive
Authority to be imposed upon Article III of the Constitution are
already set forth in the following matters already presented to
this Supreme Court:
Case no. 20-7450 {Patel v. Regents of the University of
California)
Case no. 20-7555 (Patel v. Miller)
Case no. 20-7747 (Patel v. Robinson)
The apparent bipolar mental condition of Appellant
appears to be cured by President Trump’s time in office: the
President’s Way (Joseph R. Biden, Junior) shall govern in this
Supreme Court by no later than July 4, 2021 (the same way as it
once did when he was the Vice President back on July 4, 2012).
All staff and law clerks of all judges in all federal courts
must be ordered to comply forthwith with all lawful orders of the
46th presidential administration. __

12
Petition for Writ Certiorari and Mandate for Executive Authority

ARGUMENT PURSUANT TO EXECUTIVES 1 TO 46
Appellant’s arguments are stated by each of 46 presidential
administrations per The Declaration of Independence on July 4,
1776. Executive Officers 1 through 46. Article Two, U.S.
Constitution.
Executives 1 to 46 are substantially important. Supreme
Court Rules 10 and 12. This writ concerns fulfilling the wishes of
46 presidential administrations and their executive oaths to their
nation’s ideals for the past 245 years. Id.
Judges in America are currently departed from the
customary and usual norms of law practice (and customary and
usual norms of human reality perception). The Judiciary runs
directly counter to both President Biden and Vice President
Harris. Executive Order 14023.
The entire judiciary is currently vexing their fellow 300+
million citizens and requires approval prior to issuing any further
orders in any cases or controversies. Articles II and III,
Constitution.

13
Petition for Writ Certiorari and Mandate for Executive Authority

THE CONCLUSION PER EXECUTIVE ORDER 14023
Executive Order 14023 functions as continuing legal
education for judges in America starting at Noon Eastern Time
on January 20, 2021. Article Two, Constitution.
Courts thus require permission from the Executive Branch
of U.S. Government to issue any further rulings in any case or
controversy beginning on July 4, 2021.

DATED: May 24, 2021
Anthony A. Patel
Appellant
In Pro Se

14
Petition for Writ Certiorari and Mandate for Executive Authority

